HHS/OIG, Audit -"Contingency Fees Claimed by Colorado as Medicaid
Reimbursement,"(A-07-04-01009)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Contingency Fees Claimed by Colorado as Medicaid Reimbursement," (A-07-04-01009)
October 29, 2004
Complete
Text of Report is available in PDF format (184 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was this determine whether Colorado claimed consultant fees, related to identifying family
planning costs for Medicaid managed care, in accordance with Federal laws and regulations.  >Colorado did not claim
payments made to a consultant in accordance with Federal laws and regulations.  As a result, Colorado received $179,267
that does not qualify for Federal Medicaid reimbursement.  We recommended Colorado refund $179,267 to the Federal
government, and  implement adequate controls to ensure all claims for Medicaid reimbursement involving payments made
to consultants are submitted in accordance with Federal laws and regulations.  Colorado agreed with our findings and
recommendations.